                                                                               Report No. DODIG-2013-108




              I nspec tor Ge ne ral
                                                       Department of Defense

              J U LY 2 4 , 2 0 1 3




                     The TRICARE Mail Order Pharmacy
                     Program Was Cost Efficient and
                     Adequate Dispensing Controls
                     Were in Place




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                               INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                              4800 MARK CENTER DRIVE
                           ALEXANDRIA, VIRGINIA 22350-1500


                                                                             July 24, 2013

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTH AFFAIRS)

SUBJECT: The TRICARE Mail Order Pharmacy Program Was Cost Efficient and Adequate 	
	        Dispensing Controls Were in Place (Report No. DODIG-2013-108)

We are providing this report for your information and use. We performed this audit on the
TRICARE Mail Order Pharmacy (TMOP) program (Project No. D2013-D000LF-0063) as
requested by Congressional members from the Senate and the House of Representatives
(see enclosures). Congressional members indicated that their overall concern was
whether the TMOP program was providing prescription drugs in the most efficient and
cost effective manner. In addition, the request included the following specific questions:

         •	 Is higher utilization of mail order resulting in waste and increased health
           care costs?
         •	 Are controls in place that ensure patients do not receive medications they no
           longer need?
         •	 Do processes exist to halt shipments when a patient’s physician changes the
           type of medication, dosage, strength, or other changes?
         •	 Do beneficiaries have the opportunity to opt-out of automatic refill programs?

The objective of the audit was to determine the efficiency and effectiveness of selected
aspects of the TMOP program. Specifically, we examined selected aspects of the TMOP
program to address the Congressional questions. We determined it was generally more
cost efficient for beneficiaries to obtain pharmaceuticals through the TMOP program than
through retail pharmacies. In addition, adequate controls in the TMOP program over
dispensing pharmaceuticals were in place.


Background
During FY 1994 and FY 1995, DoD conducted multiple concurrent demonstration
projects to determine if a mail order pharmacy program would save money on
prescription drug costs.    Evaluation of the projects concluded that a nation-wide
mail order program using federal pricing could result in savings. During this same
period, DoD awarded the first TRICARE managed care support contracts. According to




                                                                                             DODIG-2013-108 │ 1
                 TRICARE Management Activity (TMA), each contract included a mail order pharmacy
                 benefit, but each contractor administered the benefit differently, leaving TMA with no
                 visibility over effectiveness or cost. In 1997, DoD removed the mail order pharmacy
                 responsibility from the managed care support contracts and awarded a National Mail
                 Order Pharmacy contract. The National Mail Order Pharmacy contract included DoD’s
                 access to federal ceiling prices1 and resulted in savings. Subsequently, DoD awarded the
                 first TRICARE mail order contract to Express Scripts, Inc., in 2003. TMA administered the
                 contract with Express Scripts, Inc., which resulted in reduced administrative costs.

                 In 2008, DoD awarded the TRICARE pharmacy contract to Express Scripts, Inc., which
                 combined the TMOP program and the processing of TRICARE claims for retail pharmacy
                 purchases. Contractor payment was based primarily on a flat administrative fee for each
                 mail order prescription or retail claim processed and did not include the cost of obtaining
                 the pharmaceuticals. The TMOP program allowed beneficiaries to receive up to a
                 90-day supply of medications for a single co-payment and was intended for maintenance
                 medications—those medications taken on a regular basis. Although beneficiaries did
                 not use mail order heavily before 2009, usage steadily increased from late 2009 through
                 2012, which TMA attributed in part to an aggressive communications plan. In a 2008
                 report, the Government Accountability Office concluded that DoD’s efforts to encourage
                 use of the TMOP program were important to limiting DoD’s future prescription drug
                 spending.2 In FY 2012, TMA implemented modified pharmacy co-payments as established
                 by public law, which resulted in lower out-of-pocket costs for beneficiaries using the
                 TMOP program and higher costs for use of retail. This co-payment structure provided
                 a 90-day supply of a generic medication at no cost to the beneficiary through the TMOP
                 program compared to $15 at a retail network pharmacy.

                 Beneficiaries have three options for enrolling in the TMOP program: mail a registration
                 form with a new prescription, call the TMOP program contractor’s toll-free number, or
                 register on the TMOP program contractor’s secure website. Once enrolled in the TMOP
                 program, beneficiaries may add new prescriptions by mail, or by request to the prescriber
                 to submit prescriptions by fax or electronically when permitted. Beneficiaries may order
                 prescription refills by mailing the refill request form that they received with the previous
                 shipment, by telephone, or through the TMOP program contractor’s secure website. The
                 TMOP program contractor also offers an optional automatic refill program. Shipping is
                 provided at no cost to the beneficiary unless they request express or overnight delivery.


                 	1	
                     Federal ceiling price is the maximum price that a manufacturer may charge DoD for certain drugs under Public Law 102-
                     585; DoD must receive at least a 24 percent discount from the net wholesale price.
                 	2	
                     GAO Report No. 08-327, “Continued Efforts Needed to Reduce Growth in Spending at Retail Pharmacies,” April 2008.




2 │ DODIG-2013-108
The TRICARE Mail Order Program Was Cost Efficient and
Adequate Dispensing Controls Were in Place
The aspects of the TMOP program examined were cost efficient relative to the retail
pharmacy option. TMA’s cost analysis showed that filling prescriptions through the
TMOP program was generally more cost efficient than through retail pharmacies.
Although some costs, such as waste and pharmaceuticals returned for destruction, were
not included in the analysis, the effect was insignificant. In addition, adequate controls
over dispensing pharmaceuticals through the TMOP program were in place based on our
review and observation of dispensing operations, prescription error rates, pharmaceutical
returns, and beneficiary satisfaction surveys. Overall, the TMOP program was more
efficient and effective than retail programs, providing cost savings to DoD and potentially
reducing health risks associated with dispensing incorrect pharmaceuticals.


Mail Order Efficiency Identified in Cost Analysis
TMA’s cost analysis showed that the TMOP program cost 16.7 percent less than
prescriptions obtained through retail pharmacies. TMA began monitoring efficiency
with the mail order demonstrations projects that occurred during FY 1994 and FY 1995,
and updated as needed to consider changes in the program. TMA currently performs
a quarterly cost analysis that compares the costs of filling prescriptions at the three
points of service during the quarter: TMOP program, military treatment facilities (MTF),
and retail pharmacies. Examples of cost factors considered in the cost analysis include
co-payments, pharmaceutical costs, contract administrative fees, claim processing fees,
and retail rebates. We reviewed the methodology, cost factors, and computations in the
third quarter FY 2012 analysis that showed that the TMOP program cost 16.7 percent
less than the retail pharmacies. TMA’s cost analysis was designed to consider “what if”
scenarios. One of the TMA scenarios compared the cost of pharmaceuticals purchased
through the TMOP program to what the cost would have been if purchased at retail
pharmacies. Through this analysis for the third quarter FY 2012, TMA determined
that $398.9 million spent on mail order prescriptions would have cost $465.7 million
through retail pharmacies, resulting in about 16.7 percent savings. TMA’s cost analysis
also showed that generic pharmaceuticals generally cost DoD more through the TMOP
program than through retail pharmacies. The co-payment exemption established by
public law for generic pharmaceuticals offered through the TMOP program also
contributed to this inefficiency. However, savings from brand name pharmaceuticals
made the TMOP program more cost efficient overall. These conclusions were based on
policies in effect as of third quarter FY 2012. Any significant program changes, such as
modifying beneficiary co-payments or coverage, could affect the conclusions.



                                                                                          DODIG-2013-108 │ 3
                 TMA limited the analysis to prescriptions for non-specialty maintenance pharmaceuticals,
                 which included generic and brand name pharmaceuticals, because these prescriptions
                 comprised the majority of prescriptions filled at all three points of service. At the
                 time of our audit, TMA was developing a cost analysis for prescriptions for specialty
                 pharmaceuticals3. TMA’s cost analysis for prescriptions for non-specialty maintenance
                 pharmaceuticals included cost factors such as: ingredient cost per unit, average prime
                 vendor cost per unit, days’ supply, quantity dispensed, dispensing fee, other contract
                 costs, taxes, retail refunds, MTF overhead, and co-payments.


                 Not All Costs Were Considered
                 The TMA cost analysis did not include all of the costs associated with pharmaceutical
                 dispensing. Specifically, the TMA cost analysis did not include contract costs that were
                 indirectly associated with the cost of either mail order or retail prescriptions. For example,
                 the analysis excluded the cost of returned pharmaceuticals that required disposal,
                 which totaled 0.08 percent of the 16.9 million prescriptions dispensed during CY 2012.
                 The costs of the returned pharmaceuticals were absorbed by both DoD and the TMOP
                 program contractor. If the returned prescriptions were due to government error, such as
                 a patient not listed as deceased in the Defense Eligibility Enrollment Reporting System4
                 (DEERS) at the time of shipment, the TMOP program contractor kept the administration
                 fee it was paid at the time of the shipment. If the returned pharmaceuticals were due
                 to TMOP program contractor error, such as shipping a pharmaceutical to the wrong
                 patient, the administration fee was returned to TMA, the co-payment returned to the
                 beneficiary, and the contractor absorbed the cost of the pharmaceutical. A company
                 under contract with Defense Logistics Agency, Defense Supply Center Philadelphia
                 would pick up returned pharmaceuticals and determine what is returnable to the
                 manufacturer and what is waste. The effect of any of these excluded costs would not
                 materially change TMA’s cost analysis conclusions.


                 Waste Could Not Be Quantified
                 We did not identify information that quantified waste resulting from delivered, unneeded
                 prescription medications. According to a pharmacy industry trade group, 15 percent
                 of prescriptions from mail order pharmacy programs were associated with waste due
                 to shipment of drugs that were no longer needed. Although we requested, the group
                 did not provide specific information regarding waste related to the TMOP program. In


                 	3	
                     Specialty pharmaceuticals are high cost injectable, infused, oral, or inhaled drugs that are generally more complex to
                     distribute, administer, and monitor.
                 	4	
                     DEERS is an automated information system designed to provide timely and accurate information on those eligible for DoD
                     benefits and entitlements.




4 │ DODIG-2013-108
addition, we attempted to obtain information on waste from TMA and the TMOP program
contractor, but they could not provide data related to this type of waste. However, the
TMOP program contractor had designed and implemented dispensing controls to prevent
shipment of unneeded or ineligible prescriptions, reducing the risk of waste.

We also did not find additional waste associated with dispensing a 90-day supply of
pharmaceuticals through mail order than through retail pharmacies. A 2012 research
study5 found that dispensing a 90-day supply of medication, whether by mail or at retail
pharmacies, resulted in increased waste 57 percent of the time compared to a 30-day
supply. Although TRICARE allowed beneficiaries up to a 90-day supply through the TMOP
program, 90-day supplies were typical of other mail order prescription plans, which in
2012 were included in 93 percent of U.S. employers’ drug benefit plans. Additionally,
almost half of U.S. drug benefit plans included an option to allow 90-day supplies of
maintenance medications at retail pharmacies.6 Like TRICARE, employer health plans
offered reduced co-payments to incentivize use of mail order pharmacy programs.
While dispensing a 90-day supply potentially resulted in increased waste compared to a
30-day supply, we found no reason to conclude that prescriptions dispensed through
TMOP resulted in waste at higher rates than 90-day supplies from any other mail order
or retail program.


Dispensing Operation Controls Were Established
The TMOP program contractor designed controls, including automated controls
and pharmacist intervention, to ensure beneficiaries received only necessary
pharmaceuticals. During CY 2012, the TMOP program contractor denied 2 million
prescriptions of the 19.6 million prescriptions received. The controls ensured that
prescriptions were denied for multiple reasons including:

            •	 prescriptions were not yet eligible to be refilled,
            •	 prescriptions had missing or invalid information,
            •	 pharmaceuticals were not covered by the TRICARE program,
            •	 patients were not eligible to participate in the TRICARE program,
            •	 expired prescriptions,
            •	 interaction of prescribed medications could have been harmful, and
            •	 duplicate claims or adequate supply of the drug.


	5	
    Ian Duncan, Nikhil Khandelwal, and Patricia Murphy, “Comparing medication wastage by fill quantity and fulfillment
    channel,” American Journal of Pharmacy Benefits. 4,5 (2012)
	6	
    Pharmacy Benefit Management Institute 2012-2013 Prescription Drug Benefit Cost and Plan Design Report.




                                                                                                                         DODIG-2013-108 │ 5
                 Certain automated controls are dependent upon the availability and accuracy of two
                 government systems; DEERS and the Pharmacy Data Transaction Service (PDTS). The
                 TMOP program contractor accesses DEERS while processing each prescription to
                 determine beneficiary eligibility to participate in the program. In addition, the TMOP
                 program contractor accesses PDTS to perform a drug utilization review for beneficiary
                 safety. PDTS allows the contractor to identify a beneficiary’s current pharmaceutical
                 profile, including prescriptions filled by the TMOP program, MTFs, or retail pharmacy
                 claims that are paid by TRICARE. The TMOP program contractor uses this profile to
                 analyze prescriptions clinically for any potential adverse drug interactions. In addition,
                 the TMOP program contractor reviews prescriptions to identify multiple prescriptions
                 for the same health condition or for the same pharmaceutical of varying strengths,
                 which indicates a possibility that a beneficiary’s current prescription has been modified.
                 If the TMOP program contractor’s system identifies a potential problem, a real-time
                 alert is issued to the dispensing pharmacist to prevent drug-related adverse events. The
                 pharmacist would review the prescription change, contact the prescribing physician to
                 resolve any questions regarding safety or medication therapy concerns, and discontinue
                 any unnecessary prescriptions from the beneficiary’s profile.

                 The Auto Refill program also had controls to limit waste. This program allows beneficiaries
                 to choose automatic shipment of their refills with the option to enroll any or all of their
                 prescriptions. The Auto Refill program was intended for maintenance medications and
                 not for medications taken occasionally or as needed; prescribers could allow refills for
                 up to 1 year.7 Upon expiration, a new prescription must be sent to the TMOP program
                 contractor to continue receiving the pharmaceutical. The TMOP program contractor
                 would notify the beneficiary of the upcoming refill action based on their record. Unless
                 the beneficiary requested a cancellation, the contractor would process the refills based
                 on when their previous fill would run out. If the prescription was not needed at that
                 time, the beneficiary could cancel or postpone the refill before processing. According
                 to TMOP program contractor personnel, the beneficiary could also remove prescriptions
                 from the Auto Refill program at any time by telephone or through the TMOP program
                 contractor website. Additionally, beneficiaries could remove their prescriptions from
                 the TMOP program and obtain remaining refills at a retail or MTF pharmacy. Like all
                 refill options, it was the beneficiaries’ responsibility to manage participation in the Auto
                 Refill program. According to the TMOP program contractor, automatic refills represented
                 35 percent of the 16.9 million CY 2012 mail order prescriptions filled.




                 	7	
                       Refills for certain controlled substances were prohibited or limited to 6 months under the Controlled Substances Act.




6 │ DODIG-2013-108
Low Prescription Error Rates
According to the TMOP program contractor, prescriptions filled through the TMOP
program were 99.997 percent free of clinical errors, such as shipping the incorrect
pharmaceuticals, while retail pharmacy programs were 98.5 percent error free. The
TMOP program contractor attributed the higher effectiveness, in part, to automated
filling of high volume pharmaceuticals. Specifically, the TMOP program contractor filled
80 percent of DoD mail order prescriptions through automation and only 20 percent
manually. Prescriptions filled by automation encountered various control mechanisms
to ensure the medications were filled accurately and efficiently; therefore, reducing the
potential of wasted pharmaceuticals and adverse health risks due to beneficiaries taking
incorrect pharmaceuticals.


Low Percentage of Returned Pharmaceuticals
The TMOP program contractor received a very small percentage of mail order
pharmaceuticals in returns, giving further indication that the controls over mail order
prescriptions were working as intended.       The TMOP program contractor shipped
16.9 million prescriptions received in CY 2012 to TRICARE beneficiaries.          Of the
16.9 million prescriptions shipped, the TMOP program contractor processed
approximately 24,000 returns.      However, pharmaceuticals for only approximately
14,000 prescriptions, or 0.08 percent, were returned as undeliverable and had to be
disposed. The majority of initial returns resulted from incorrect addresses provided by
the beneficiary.


Quarterly Surveys Showed Beneficiary Satisfaction
Quarterly telephonic surveys conducted by a third-party contractor on behalf of DoD
showed that beneficiaries were consistently satisfied with the mail order services
provided by the TMOP program contractor. From December 2009 to November 2012,
the number of respondents who answered that they were somewhat, very, or completely
satisfied averaged 96 percent.


Cost Savings and Potentially Reduced Health Risks
The TMOP program overall was more cost efficient than the retail pharmacy method of
obtaining pharmaceuticals. In addition, the TMOP program contractor had adequate
controls in place designed to identify and deny prescriptions that were ineligible or
unnecessary. The TMOP program also has features advantageous for beneficiary health.
For example, the TMOP program contractor’s prescription accuracy rate exceeded the
retail industry average, reducing the risk of adverse health outcomes to beneficiaries as




                                                                                        DODIG-2013-108 │ 7
                 a result of taking the wrong pharmaceuticals. Another benefit of the TMOP program was
                 the automatic refill and shipment option designed to ensure beneficiaries’ medications
                 were available on time without lapse. We believe that the overwhelming use of mail
                 order pharmacy plans by employers combined with the availability of mail order
                 options at major retail chains is an acknowledgement of the value added by mail order
                 pharmacy programs. Therefore, the TMOP program overall provided cost savings to
                 DoD while potentially preventing health risks to DoD beneficiaries.


                 Review of Internal Controls
                 The internal controls relative to the selected aspects of the TMOP program were generally
                 effective as they applied to the audit objective.


                 Audit Scope and Methodology
                 We conducted this performance audit from December 2012 through July 2013 in
                 accordance with generally accepted government auditing standards. Those standards
                 require that we plan and perform the audit to obtain sufficient, appropriate evidence to
                 provide a reasonable basis for our findings and conclusions based on our audit objectives.
                 We believe that the evidence obtained provides a reasonable basis for our findings and
                 conclusions based on our audit objective.

                 Congressional members, who requested the audit, had questions on the effectiveness of
                 patients utilizing their medications or what changes would ensure patients were taking
                 their medications. However, we responded separately in January 2013 that we would not
                 review patient utilization of their medications.

                 To obtain background information on TMOP and history of the mail order pharmacy
                 benefit, we met with representatives from TMA and reviewed historical information. We
                 reviewed the TRICARE Pharmacy contract to determine the contractor’s requirements
                 for administering the TMOP program as well as information provided to beneficiaries,
                 including the TRICARE Pharmacy Handbook and information on the TRICARE and
                 TMOP program contractor websites, and used the results to compare TMOP to standard
                 U.S. pharmacy industry policies and practices. To identify standard industry policies
                 and practices, we conducted teleconferences with and obtained information from two
                 retail pharmacy trade associations; reviewed peer-reviewed industry research; and
                 reviewed an industry survey of trends in employer-provided pharmacy benefit programs.

                 To obtain information on the cost analysis of the TMOP program we met with the Chief of
                 the TMA Pharmaceutical and Operations Directorate and his staff, and representatives of



8 │ DODIG-2013-108
the DoD Pharmacoeconomic Center. We reviewed and analyzed the latest completed cost
analysis that covered the FY 2012 third quarter to determine which costs were included
and if the TMOP program was an efficient way to deliver prescription drugs to TRICARE
beneficiaries. We also reviewed the TMOP contract line item number payouts from
November 2009 through December 2012 to verify the costs considered in the cost analysis
were accurate and complete. We reviewed Federal and DoD regulations to determine
if cost analyses were required before entering into a contract and during the life of a
contract.     To gain an understanding of the process for returning pharmaceuticals,
we interviewed personnel from TRICARE and searched the Defense Supply Center
Philadelphia web-site for information on the Pharmaceutical Reverse Distribution
Program.      We also reviewed the TMOP contract and the Pharmaceutical Reverse
Distribution contract for cost information. From interviews with TMA personnel, we were
able to determine the payment and credit process associated with the TMOP program
contractor.

To determine whether adequate dispensing controls were in place, we reviewed controls
at the TMOP program contractor facility in Tempe, Arizona. We conducted a site visit at the
TMOP program contractor’s facility to observe procedures used to process prescriptions
from receipt of the prescription to shipment. We interviewed TMOP program contractor
and TMA personnel. We obtained and analyzed copies of standard operating procedures
and process overviews. We reviewed CY 2012 statistics on prescriptions received, filled,
denied, and returned; however, we did not audit the quantities or dollar amounts listed
in the reports and cannot attest to their accuracy. In addition, we reviewed the reasons
provided for prescriptions denied and returned in CY 2012.


Use of Computer-Processed Data
We relied on summaries of computer-processed data provided by the TMOP program
contractor, to include number of prescriptions received, dispensed, denied, and returned.
The TMOP contractor’s proprietary information system relied primarily on PDTS for
controls over processing prescriptions. We also relied on PDTS data that formed the
basis for the TMA cost analyses associated with the efficiency of the TMOP program.
To test the reliability of PDTS data, we statistically selected an internal controls sample
of 45 filled prescriptions from PDTS and compared the information with images of the
original prescriptions. We found no inconsistencies between the PDTS data and the
source documentation, and therefore conclude, with 90 percent confidence, that the error
rate is under 5 percent. Based on the results of our sample, and our positive conclusions
regarding controls over processing prescriptions, we determined the summary data we
obtained was sufficiently reliable to accomplish our audit objective.



                                                                                          DODIG-2013-108 │ 9
                 Prior Audit Coverage
                 During the last 5 years, the Government Accountability Office issued one report,
                 referenced on page 2 of this report, discussing the DoD Pharmacy Program. Unrestricted
                 Government Accountability Office reports can be accessed over the Internet at
                 http://www.gao.gov.

                 You can obtain information about the Department of Defense Office of Inspector
                 General from DoD Directive 5106.01, “Inspector General of the Department of Defense
                 (IG DoD),” April 20, 2012; DoD Instruction 7600.02, “Audit Policies,” April 27, 2007; and
                 DoD Instruction 7050.3, “Access to Records and Information by the Inspector General,
                 Department of Defense,” April 24, 2000. Our website is www.dodig.mil.

                 We appreciate the courtesies extended to the staff. If you have any questions, please
                 contact me at (703) 604-8866 (DSN 664-8866).

                 					


                 						                                        Alice F. Carey
                 						                                        Assistant Inspector General
                 						                                        Contract Management and Payments

                 Enclosures




10 │ DODIG-2013-108
Enclosures




             DODIG-2013-108 │ 11
      Enclosures




12 │ DODIG-2013-108
Enclosures




             DODIG-2013-108 │ 13
         Enclosures




14 │ DODIG-2013-108
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
